No. 19-158

In tie iupreine Court of tbe Eutteb gptate5
Dr. Marcus Turner, Sr.,
Russell Moore, Jr., and
Beulah Community Improvement Corp.,
Applicants,
v.
Alva C. Hines, et al.,
Respondents.

CERTIFICATE OF SERVICE

I, Joseph E. Richotte, counsel for the Applicants in the above-captioned
action, certify that, on this 12th day of August, 2019, I caused a copy of the
Notification of Docket Entry and Waiver Form pursuant to Rule 29, to be served by
overnight delivery and email on each of the following attorneys who serve as
counsel to the Respondents in the courts below:
Seth A. Rosenthal
Calvin R. Nelson
VENABLE LLP
600 Massachusetts Ave., N.W.
Washington, D.C. 20001
(202) 344-4000
sarosenthal@venable.com
crnelson@venable.com

Joshua Counts Cumby
ADAMS & REESE,LLP
20 F Street, N.W.
Suite 500
Washington, D.C. 20001
(202) 737-3234
joshua.cumby@arlaw.com

{ SERVICE LIST CONTINUED ON NEXT PAGE ]

Bradford S. Bernstein
James A. Sullivan, Jr.
MILES & STOCKBRIDGE
11 N. Washington St.
Suite 700
Rockville, MD 20850
(301) 762-1600
bbernstein@milesstockbridge.com
jsullivan@milesstockbridge.com

I further certify that all parties required to be served have been served.

Respectfully submitted,
/s/ Joseph E. Richotte
Joseph E. Richotte
Counsel of Record
Joseph G. Cosby
BUTZEL LONG,P.C.
1909 K Street, N.W.,
Suite 500
Washington, D.C. 20006
(202) 454-2800
cosby@butzel.com

BUTZEL LONG, P.C.
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, Michigan 48304
(248) 258-1616
richotte@butzel.com

Counsel for Applicants
Dr. Marcus Turner, Sr.,
Russell Moore, Jr., and
Beulah Community Improvement Corp.

August 12, 2019

2

Supreme Court of the United States

Marcus Turner, Sr., et al.
(Petitioners)
v.

No. 19-158

Alva C. Hines, et al.
(Respondent)
Seth A. Rosenthal, Venable, LLP, 600
To Massachusetts Ave., N.W., Washington,
D.C. 20001

___ Counsel for Respondent:

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on July 30, 2019, and placed on the docket August 2, 2019. Pursuant to Rule 15.3, the
due date for a brief in opposition is Tuesday, September 3, 2019. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Joseph Edward Richotte
Butzel Long
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1407

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

Supreme Court of the United States

Marcus Turner, Sr., et al.
(Petitioners)
v.

No. 19-158

Alva C. Hines, et al.
(Respondent)
Joshua Counts Cumby, Adams & Reese, LLP,
To 20 F Street, N.W., Suite 500, Washington, D.C. Counsel for Respondent:
20001
NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on July 30, 2019, and placed on the docket August 2, 2019. Pursuant to Rule 15.3, the
due date for a brief in opposition is Tuesday, September 3, 2019. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Joseph Edward Richotte
Butzel Long
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1407

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

Supreme Court of the United States

Marcus Turner, Sr., et al.
(Petitioners)
v.

No. 19-158

Alva C. Hines, et al.
(Respondent)
Bradford S. Bernstein, Miles & Stockbridge, 11
To N. Washington Street, Suite 700, Rockville, MD Counsel for Respondent:
20850
NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on July 30, 2019, and placed on the docket August 2, 2019. Pursuant to Rule 15.3, the
due date for a brief in opposition is Tuesday, September 3, 2019. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://w ww.supre mecourt.gov/filingandrules/electronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Joseph Edward Richotte
Butzel Long
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1407

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

WAIVER
Supreme Court of the United States
No. 19-158

Marcus Turner, Sr., et al.
(Petitioners)

v.

Alva C. Hines, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
❑

Please enter my appearance as Counsel of Record for all respondents.

❑

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

❑ I am a member of the Bar of the Supreme Court of the United States.
❑ I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
Date:
(Type or print) Name
❑ Mr.

❑ Ms.

❑ Mrs.

❑ Miss

Firm
Address
City & State

Zip

Phone
SEND A COPY OF THIS FORM TO PETITIONERS COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Joseph E. Richotte, Esq.
Cc: Butzel Long, PC
41000 Woodward Ave.
Stoneridge West Building
Bloomfield Hills, MI 48304
richotte@butzel.com
guardiola@butzel.com
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

